                   u.s. SMALL BUSINESS ADMINISTRATION
                        OFFICE OF INSPECTOR GENERAL
                             Washington, DC 20416

                                                              AUDIT REPORT
                                                    Issue Date: January 6, 2005
                                                    Report Number: 05-08



TO: 	         Sharon Gurley
              Director, Office of Procurement & Grants Management


FROM: 	        Robert Seabrooks
               Assistant Inspector General for Auditing


SUBJECT: 	     Single Audit of the [ForA ex. 4]


We identified that a single audit report has been processed by the Federal Audit
Clearinghouse (FAC) from receipt of the          [ForA ex. 4]         for the year ended
fiscal year 2003. The audit was prepared by Secret & Shield, A.C. Certified Public
Accountants.

We are attaching excerpts from the subject audit report pertaining to findings and
recommendations for your action in accordance with SOP 20 35, "Audit Follow up
System". The auditee has included a corrective action plan. A determination should be
made by your office that all deficiencies have been corrected. This determination should
be in writing, and along with other appropriate documentation, should be available for
review by appropriate officials.

Under SOP 20-35, you have a maximum of 80 calendar days from the date of this
memorandum to decide on the actions that the agency proposes to take on each audit
finding and recommendation and complete the Recommendation Action Sheet (SBA
Form 1824) with your management decision. The Office ofInspector General must
concur with your management decision before it may be issued as a final determination
and is implemented. The SOP prescribes procedures for handling any disagreements this
office may have with the proposed management decision.

Also please provide a copy to us when the audit determination letter is sent to the auditee
and include the above audit report number for all correspondence relating to this audit.
                      Summary of Finding and Questioned Cost

As described in finding number 2003-3, 2003-4, and 2003-6 in the accompanying excerpt
of the schedule of findings and questioned costs,        [FOIA ex. 4]        did not
comply with compliance requirements regarding disbursements documentation, budget
overruns, property records management, requirements for prior approval or asset
purchases in excess of $5,000 and timely reporting that are applicable to [FOIA ex. 4]


 Audit Findin\: Number              Questioned Costs     OIG Recommendation Nr.
          2003-3                              $47,806.00         05-01
          2003-4                             $120,000.00         05-02
          2003-6                              $10,400.00         05-03
Total Questioned Costs                       $178,206.00

Finding 2003-3

During compliance testing of disbursements, auditors noted eleven items that grantees
could not provide adequate supporting documentation and questioned cost of $47,806.49.
( See Exhibit A)

Action Taken - Grantee stated that the necessary procedures for documenting and filing
of financial information have been initiated.

OIG Recommendation 05-01

We recommend that the Director of Procurement and Grant Management (OPGM) to
request the grantee to provide supporting documentation for the $47,806.49 questioned
costs or obtain a refund of the unsupported costs.

Finding 2003-04

Grantee exceeded the budgeted amount by $120,000.

Action Taken Grantee stated that steps have been initiated to see that all
correspondence is filed in a secure location so that compliance with grant reporting
requirements can be documented.

 OIG Recommendation 05-02

 We recommend that the Director of Procurement and Grant Management (OPGM) to
 require the grantee to provide justification for the $120,000 amounts that exceeded the
 budget and/or obtain a refund.
Finding 2003-06

[FOIAex.4]                  purchased computer equipment for $10,400 without prior
SBA approval.

Action Taken - Grantee stated internal controls have been initiated to facilitate timely
filings of all grant reporting requirements.

OIG Recommendation 05-03

We recommend that the Director of Procurement and Grant Management (OPGM) to
determine if       [FOIA ex. 4]        purchase of computer equipment for the sum of
$10,400 was reasonable and allowable or obtain a refund of the unapproved costs for
computer equipment.
Drafted By: James E. Foreman

Date: January 4, 2005


CLEARED BY:



       [FOIA ex. 6]                       I
Je     rindle, Director ofIT & FM Group



Bee:

ChronFile
James E. Foreman
Jeff Brindle
Darryl Hairston
10
                                                                             Exhibit A


[FOIAex.4]
Disbursements without adequate documentation
FYE June 30, 2003



 Check      Check             Payee               Amount            Explanation
  Date     Number
8/26/02    1944      Miners and Merchants                    No documentation located
                     Bank                          11,306.70 except cancelled check.
8/16/02    458       Richter's Maplehouse                    No general ledger account
                                                    1,284.80 listed.
6/30/03    1000      Pictorial histories              302.45 No purchase order.
12/6/02    246       Nashville Wraps                  109.92 No purchase order.
1116/02    134       Labyrinth Art Class                     No general ledger account
                                                      435.00 listed.
10/10/02   1989       Postmaster                             No documentation located
                                                      500.00 except cancelled check.
1116/02    127        Pamela Grandstaff               119.35 No documentation located
                                                             except cancelled check.
12/6/02    243        Country living                         No documentation located
                                                   30,000.00 except cancelled check.
01/17/03   611        Elkins Distributing                    No documentation located
                      Company                          27.56 except cancelled check.
03118103   786        Blackwater Bikes                       No documentation located
                                                       21.19 except cancelled .check.
06/06/03   910        Mountain State Blue                    No documentation located
                      Cross                         3,699.52 except cancelled check.
                      Total Question Costs        $47,806.49

                                             .I




Source: Data provided by Secret & Shields, A.C. Certified Public Accountants
                                        [FOIA ex. 4]
                                                                                                Attachment I
                    SCHEDULE OF FINDINGS AND QUESTIONED COST
                            YEAR ENDED JUNE 30, 2003

SUMMARY 01= AUDITOR'S RESUL        is
  1. 	 The auditor's report expresses an unqualified opinion on the general purpose financial
       statements of [ForA ex. 4]

  2. 	 One reportable condition disclosed during the audit of the financial statements is
       reported in the Schedule of Findings and Questioned Cost and it is reported as a
       material weakness.

   3. 	 There were instances of noncompliance material to the financial statements of
        [ForA ex. 4]               which are required to be reported in accordance with
        Government Auditing Standards that were disclosed during the audit.

   4. 	 One reportable condition in internal control over major federal award programs disclosed
        during the audit is reported in the Schedule of Findings and Questioned Cost. This
        condition is reported as a material weakness.

   5. 	 The auditor's report on compliance for the major federal award programs for
       [ForA ex. 4]                       expresses a qualified opinion on the major federal
       program.

   6. 	 Audit findings that are required to be reported in accordance with Section 510(a) of OMB
        Circular A-133 are reported in this Schedule.

   7. 	 The program tested as major program was US Small Business Administration CFDA
       59.00.

   8. 	 The threshold used for distinguishing between Type A and B programs was $300,000.

   9. 	 [ForA ex. 4]                    did not qualify as a low-risk auditee.

FINDINGS - I=INANCIAL STATEMENTS AUDit

       2003-1 General

                Condition: We noted the following matter involving the internal control structure
                and its operation that we consider to be a reportable condition under standards
                established by the American Institute of Certified Public Accountahts.

                Criteria: One person performed most of the accounting and financial duties. As a
                result, many of those aspects of internal accounting control which rely upon an
                adequate segregation of duties were, for all practical purposes, missing in the
                [ForA ex. 4] programs. However, due to the limited number of employees,
                complete segregation of duties is not feasible.




                                              1 of 5
                                      [FOIA ex. 4] 

                  SCHEDULE OF FINDINGS AND QUESTIONED COST 

                          YEAR ENDED JUNE 30, 2003 



             Effect: A material weakness is a condition in which the design or operation of
             one or more internal control components does not reduce to a relatively low level
             the risk that misstatements in amount that would be material in relation to the
             financial statements may occur and not be detected within a timely period by
             employees in the normal course of perfonning their assigned functions. This lack
             of segregation of duties could also adversely affect the Board's ability to record,
             process, summarize, and report financial data consistent with the assertions of
             management in the financial statements.

             Cause: The above situation resulted from the [ForA ex. 4] limited number of
             employees responsible for internal accounting control.

              Recommendation: We recognize that the [ForA ex. 4] is not large enough to
              make the employment of additional persons for the purpose of segregating duties
              practicable .from a financial standpoint, but we are required, under our
              professional responsibilities, to call the situation to the [ForA ex. 4] attention.

FINDINGS AND QUESTIONED COST - MAJOR FEDERAL AWARDS AUDIT

Small Business Administration
Program CFDA No: 59.000

       2003-2 General - All Federal Programs

              Condition: We noted the following matter involving the internal control structure
              and its operation that we consider to be a reportable condition under standards
              established by the American Institute of Certified Public Accountants.

              Criteria: One person performed most of the accounting and financial duties. As a
              result, many of those aspects of internal accounting control which rely upon an
              adequate segregation of duties were, for all practical putPoses, missing in the
              [ForA ex. 4] programs. However, due to the limited number of employees,
              complete segregation of duties is not feasible.

              Effect: A material weakness is a conditiori in which the design or operation of
              one or more internal control components does not reduce to a relatively low level
              the risk that misstatements in amount that would be material in relation to the
              financial statements may occur arid not be detected Within a timely period by
              employees in the nonnal course of perfonning their assigned functions. This lack
              of segregation of duties could also adversely affect the Board's ability to record,
              process, summarize, and report financial data consistent with the assertions of
              management in the financial statements.

              Cause: The above situation resulted from the [ForA ex. 4] limited number of
              employees responsible for internal accounting control.




                                             2 of 5
                                       [FOIA ex. 4]
                   SCHEDULE OF FINDINGS AND QUESTIONED COST
                           YEAR ENDED JUNE 30, 2003


              ~ecommendation: We recognize that the [ForA ex. 4] is not large enough to
              make the employment of additional persons for the purpose of segregating duties
              practicable from a financial standpoint, but we are required, under our
              professional responsibilities, to call the situation to the [ForA ex. 4] attention.

Small Business Administration
Program CFDA No: 59.000

       2003-3 Federal Awards No:     [ForA ex. 2, 4] - Year ended September 24, 2003

              Condition: During compliance testing of disbursements, we noted that seven
              disbursements had no documentation except cancelled checks. We also noted
              that two disbursements had no purchase orders and two disbursements were not
              assigned general ledger account numbers.

              Cause: Possible cause may be the recent turnover of management .. and
              supervisors in charge of accounting records and the fact that some of the
              disbursements were controlled at another location.

              Criteria: SBA 2002 grant, Section 29, II, P (1), requires the Recipient to maintain
              complete and accurate records including supporting documentation to support
              and facilitate any thorough financial and/or program audit.

              Effect: An audit of this award could result in the disallowance of the cost and the
              establishment of a debt due to the government.

               Recommendation: We recommend [ForA ex. 4]follow prescribed procedures for
               documenting and filing of financial information.

                                                            Number                Dollars
                Population Size                              1329           $    1,569,014
                Items Tested                                  50                   111,534
                Items Not in Coml2iiance                      11                    47,195

                Questioned cost:                                            $       47 :195


 Smail Business Administration
 Program CFDA No: 59.000

        2003-4 Federal Awards No: [ForA ex. 2,4] - Year ended September 24,2003

               Condition: During our testing of performance reports, we noted one instance
               where actual expenditures materially exceeded the budgeted amount:
               Specifically, advertising expenditures (actual - $220,000, budget - $100,000).
               We were unable to document an explanation for this cost overrun on the
               performance report.




                                              3 of 5
                                       [FOIA ex. 4]
                  SCHEDULE OF FINDINGS AND QUESTIONED COST 

                          YEAR ENDED JUNE 30, 2003 


             Cause: As of the date of this report, information on these variances had not
             been made available to us.


             Criteria: The SBA 2002 grant requires in Section 29, /I, R 3(d) that an
             explanation of cost overruns by object cost category be submitted in addition to
             any required financial reports.

             Effect: An audit of this award could result in the disallowance of the cost and the
             establishment of a debt due to the government.

             Recommendation: We suggest that all records be kept of all correspondence
             between the grant administrators and the [ForA ex. 4] staff so compliance with
             grant requirements can be documented. We also suggest that a periodic review
             of these expenditures be documented.


Small Business Administration
Program CFDA No: 59.000

       2003-5 Federal Awards No:    [ForA ex. 2, 4] - Year ended September 24, 2003

              Condition: During the course of our audit, we were unable to locate property
              records tliat Complied with reqUirements of OMB Cir.A-11 0.34.

              Cause: No formar accounting policies requiring property "record management in
              accordanee with OMB requirements exist at the time of this report.

              Criteria: OMB Cir.A-110.34, (f)(1}(i) requires a description, manufacturer's serial
              number, model, acquisition date, information on federal participation, location Of
              equipment and unit acquisition cost.

              Effect: An audit of this award could result in the disallowance of the cost and the
              establishment of a debt due to the government.

              Recommendation: We suggest that proper record keeping be emphasized' in all
              future transactions. We would also recommend that formal policies be adopted
              by management to reduce these risks in the future.

Small Business Administration 

Program CFDA No: 59.000 


       2.003-6 Federal Awards No:    [ForA ex. 2, 4] - Year ended September 24, 2()03

              Condition: During our testing of grant disbursements we noted the [ForA ex. 4]
              purchase of the $10,400 computer server and back-up had not received prior
              SBA approval.

              Cause: No formal accounting policies requiring property record management in
              accordance with OMB requirements exist at the time of this report


                                             4 of 5
                                       [FOIA ex. 4] 

                  SCHEDULE OF FINDINGS AND QUESTIONED COST 

                          YEAR ENDED JUNE 30, 2003 


             Criteria: SBA Grant, Section 29, II, E (4) requires notification 30 days in advance
             for all equipment purchases in excess of $5,000.

             Effect: An audit of this award could result in the disallowance of the cost and the
             establishment of a debt due to the government.

              Recommendation: We suggest that staff members be familiar with major grant
              provisions and monitoring controls be implemented to see that these provisions
              are followed.

Small Business Administration
Program CFDA No: 59.000

       2003-7 Federal Awards No:    [ForA ex. 2, 4] - Year ended September 24,2003

              Condition: During our testing of grant reporting requirements, we noted that the
              final (fourth quarter) report was not timely filed with SBA.

              Cause: We were unable to obtain a satisfactory explanation for the untimely
              filing of this report.

              Criteria: SBA 2002 Grant, Section 29, II, S (3) requires the submission of Form
              269 (Financial Status Report) and Form 272 (Federal Cash Transaction Report)
              90 days after the end of each 12-month budget period.

              Effect: SBA 2002 Grant, SeCtion 29, II, R (1) stales that the SBA may withhOld or
              delay requested payments if reports are not received or are deemed inadequate.

              Recommendation: We suggest that policies and procedures be implemented to
              facilitate timely filings of all grant reporting requirements.




                                             5 of 5
[FOIA ex. 4]                                                                                      [ForA ex. 2, 4]



                                                                                                          Attachment 2


                                           CORRECTIVE ACTION PLAN

                                                     March 15, 2004


               Department of Commerce
               Small Business Administration

               [ForA ex. 4]              respectively submits the following corrective action plan for
               the year ended June 30, 2003.

               Independent public accounting firm:

                              SECRET & SHIELDS, A.C. 

                              333 West Main Street 

                              Clarksburg, West Virginia 26301-2947 


               Audit Period - Year Ended June 30,2003

               The findings from the year ended June, 30,' 2003 schedule of findings and questioned
               cost are discussed below. The findings are numbered consistently with the numbers
               assigned in the schedule.

               FINDINGS - FINANCIAL STATEMENT AUDIT

                       2003-1 General

                              Condition: We noted the following matter involving the internal control
                              structure and its operation that we consider to be a reportable condition
                              under standards established by the American Institute of Certified Public
                              Accountants. One person performed most of the accounting and financial
                              duties. As a result, many of those aspects of internal accounting control
                              which rely upon an adequate segregation of duties were, for all practical
                              purposes, missing in the [ForA ex. 4] programs.

                              Recommendation: Segregation of duties is normally difficult to accomplish
                              within a small organization and due to the limited number of employees,
                              complete segregation of duties is not feasible, but management should be
                              ever mindful of areas that can easily be improved.

                              Action Taken: We concur with the recommendation. This situation
                              dictates that the Board of Directors remains involved in the financial
                              affairs of the [FOrA ex. 4] to provide oversight and independent review
                              functions.




                                                          1 of 4 

                                                      [ForA ex. 2, 4] 

J

        FINDINGS AND QUESilONED cos! - MAJOR F'EDERAL AWARDS AUOII

        Small Business Administration
1       Program CFDA No: 59.000

        2003-2 General - All Federal Programs
1                     Condition: We noted the following matter involving the internal control
                      structure and its operation that we consider to be a reportable condition
1                     under sh!ndards established by the American Institute of Certified Public
                      Accountants. One person performed most of the accounting arid financial
                      duties. As a result, many of those aspects of internal accounting control
]                     which rely upon an adequate segregation of duties were, for all practical
                      purposes, missing in the [FOIA ex. 4] programs.

                      Recommendation: Segregation of duties is normally difficult to accomplish
]                     within a small organization and due to the limited number of employees,
                      complete segregation of duties is not feasible, but management should be
                      ever mindful of areas that can easily be improved.
]
                      Action Taken: We concur with the recommendation. This situation
                      dictates that the Board of Directors remains involved in the financial
]                     affairs of the [FOIAex. 4]to provide oversight and .independent review
                      functions.

]	      Small Business Administration 

        Program CFDA No:. 59.000 


]       2003-3 Federal Awards No: [FOIA ex. 2, 4] - Year ended September 24, 2003

                      Condition: During compliance testing of disbursements, we noted that
                      seven disbursements had no documentation except cancelled checks.
]                     We also noted that two disbursements had no purchase orders and two
                      disbursements were not aSSigned general ledger account numbers.

]	                     Recommendation:      We recotrii'nend [FOIA ex. 4] follow prescribed
                       procedures for documenting and fiiing of financial information.

]	                     Action Taken: We concur with the retothmendatioh and have initiated the
                       necessary procedures for documenting and filing df financial information.

]
]
    ]

    ]                                            2 of 4


    J
Small Business Administration
Program CFDA No: 59.000

2003-4 Federal Awards No: [ForA ex. 2, 4] - Year ended September 24,2003

              Condition: During our testing of performance reports, we noted one
              instance where actual expenditures materially exceeded the budgeted
              amount: Specifically, advertising expenditures (actual- $220,000, budget
              - $100,000).

              Recommendation:       We suggest that all records be kept of all
              correspondence between the grant administrators and the [ForA ex. 4]
              staff so compliance with grant requirements can be documented. We
              also suggest that a periodic review of these expenditures be documented.

              Action Taken: We concur with the recommendation and have initiated
              steps to see that all correspondence is filed in a secure location so that
              compliance with grant reporting requirements can be documented.

Small Business Administration
Program CFDA No: 59.000

2003-5 Federal Awards No:       [ForA ex. 2, 4] - Year ended September 24, 2003

              Condition: During the course of our audit, we were unable to locate
              property records that complied with requirements of OMB Cir.A-110.34
              which requires a description, manufacturer's serial number, model,
              acquisition date, information on federal participation, location of
              equipment and unit acquisition cost.

               Recommendation: We suggest that proper record keeping be
               emphasized in all future transactions. We would also recommend that
               formal policies be adopted by management to reduce these risks in the
               future.

               Action Taken:      We concur with the recommendation and will adopt
               policies that will require a description, manufacturer's serial number,
               model, acquisition date, information on federal participation, location of
               equipment and unit acquisition cost.




                                           3 of 4
Small Business Administration
Program CFDA No: 59.000

       2003-6 Federal Awards No: [FOIA ex. 2, 4] - Year ended September 24, 200:!

              Condition: During our testing of grant disbursements we noted the
              [FOIA ex. 4] purchase of the $10,400 computer server and back-up had
              not received prior SBA approval. SBA Grant, Section 29, II, E (4)
              requires notification 30 days in advance for all equipment purchases in
              excess of $5,000.

              Recommendation: We suggest that staff members be familiar with major
              grant provisions and monitoring controls be implemented to see that
              these provisions are followed.

              Action Taken: We concur with the recommendation. and have initiated a
              review of grant contracts to establish that we are in compliance with all
              current reporting requirements.

Small Business Administration 

Program CFDA No: 59.000 


        2003-7 Federal Awards No: [FOIA ex. 2, 4] - Year ended September 24, 2003

              Condition: During our testing of grant reporting requirements, we noted
              that the final (fourth quarter) report was not timely filed with SBA which
              requires the submission of Form 269 (Financial Status Report) and Form
              272 (Federal Cash Transaction Report) 90 days after the end of each 12­
              month budget period.

               Recommendation: We suggest that policies and procedures be
               implemented to facilitate timely filings of all grant reporting requirements.

               Action Taken: We concur with the recommendation and have initiated
               internal controls to facilitate timely filings of all grant reporting
               requirements.

 If the Department of Commerce, Small Business Administration has questions regarding
 this plan, please call [FOIA ex. 4] Director, at 1-877-686- [FOIA ex. 2]

 Sincerely,

 [FOIAex.4]

 [FOIA ex. 4, 6]

 [FOIAex.4]      Director




                                           40f4
